OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ETHIOPIA’S
PEPFAR-FUNDED ACTIVITIES
AND COMMODITIES FOR THE
PREVENTION OF MOTHER-TO-
CHILD TRANSMISSION OF HIV
AUDIT REPORT NO. 9-663-09-008-P
June 25, 2009




WASHINGTON, DC
l


Office of Inspector General


June 25, 2009

MEMORANDUM

TO:             USAID/Ethiopia, Acting Mission Director, Gerald A. Cashion

FROM:           IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:        Audit of USAID/Ethiopia’s PEPFAR-Funded Activities and Commodities
                for the Prevention of Mother-to-Child Transmission of HIV
                (Audit Report No. 9-663-09-008-P)


This memorandum transmits the final report on the subject audit. In finalizing this report, we
considered your comments and have included them as appendix II.

The report includes five recommendations to strengthen USAID/Ethiopia’s activities and
commodities for the prevention of mother-to-child transmission of HIV, funded by the President’s
Emergency Plan for AIDS Relief. On the basis of your comments and target completion dates,
we concur that management decisions have been reached on four of the five recommendations.
Please provide a target completion date for recommendation 3 within 30 days of receipt of this
report, and coordinate final actions on recommendations 1 through 5 with USAID’s Audit,
Performance and Compliance Division (M/CFO/APC).

I appreciate the cooperation and courtesy extended to my staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 5

Audit Findings ................................................................................................................. 6

          Need for Data Quality Assessment .................................................................... 13

          Need for a Performance Management Plan That Includes
          Prevention of Mother-to-Child Transmission of HIV ............................................ 15

          Need for an Interim Action Plan to
          Support Commodity Supplies.............................................................................. 16

          Need for Inventory Management Training........................................................... 18

Evaluation of Management Comments ....................................................................... 20

Appendix I—Scope and Methodology......................................................................... 23

Appendix II—Management Comments........................................................................ 25
SUMMARY OF RESULTS
USAID/Ethiopia’s program activities to prevent mother-to-child transmission of HIV (the
program) are an important part of the U.S. Government’s implementation of the
President’s Emergency Plan for AIDS Relief (PEPFAR). 1 The mission has used
Intrahealth International, Inc., as a key implementing partner for its program activities
through the use of a cooperative agreement. During fiscal year (FY) 2008, the period
covered by this audit, $6.3 million was allocated for the mission’s program activities, of
which approximately $5 million went to Intrahealth. (See pages 3–5.)

To put USAID/Ethiopia’s program contribution into proper context, we need to discuss
the U.S. Government’s activities being carried out by USAID, the Centers for Disease
Control and Prevention (CDC), and the U.S. Embassy/Addis Ababa. We will first
discuss the U.S. Government’s goal for preventing mother-to-child transmission of HIV
to improve the overall survival of mothers and children and to maximize the number of
AIDS-free children. According to a late FY 2008 portfolio review conducted by USAID
and CDC, the U.S. Government’s activities to prevent mother-to-child transmission in
Ethiopia have had little success overall in bringing HIV-positive pregnant women and
mothers into care and treatment and preventing infant infections. According to the
mission, improving maternal and child mortality will continue to be an ongoing effort, but
positive achievements in these areas have been realized. (See page 4.)

In FY 2008, the U.S. Government’s results in achieving four targets established for
prevention of mother-to-child transmission were as follows:

      •   The target for pregnant women who received HIV counseling and testing for
          prevention of mother-to-child transmission and who received their test results
          was 260,103. The number achieved was 214,160, or 82 percent of the target.
      •   The target for outlets providing the minimum package of program services
          according to standards was 656. The number achieved was 429, or 65 percent
          of the target.
      •   The target for health workers trained to provide program services according to
          standards was 2,762. The number achieved was 2,259, or 82 percent of the
          target.
      •   The target for HIV-infected pregnant women who received antiretroviral
          prophylaxis for prevention of mother-to-child transmission in a program setting
          was 12,831. The number achieved was 5,290, or 41 percent of the target. (See
          page 4.)

In answering the audit’s first objective—to determine whether USAID/Ethiopia’s activities
for the prevention of mother-to-child transmission of HIV contributed toward meeting
mandated targets—the audit found that the mission’s activities did contribute toward
meeting the targets, and the mission was making inroads to address program
challenges. For instance, three of four indicators in FY 2008 showed the following:

      •   The target for pregnant women who had received HIV counseling and testing for
          prevention of mother-to-child transmission and who had received their test

1
    HIV/AIDS—human immunodeficiency virus/acquired immunodeficiency syndrome.


                                                                                        1
        results was 116,703. The number achieved was 107,123, or 92 percent of the
        target.
    •   The target for outlets providing the minimum package of program services
        according to standards was 267. The number achieved was 247, or 93 percent
        of the target.
    •   The target for health workers trained to provide program services according to
        standards was 740. The number achieved was 944, or 128 percent of the
        target.

However, the fourth indicator—number of HIV-infected pregnant women who had
received antiretroviral prophylaxis for prevention of mother-to-child transmission in a
program setting—had a target of 6,629. The number achieved was 1,225, or 18 percent
of the target. (See pages 6–7.)

This audit also had a second objective: to determine whether the mission has procured,
stored, and distributed commodities for the program to help ensure that intended results
were achieved and to assess what impact the activities have made. The audit found that
USAID/Ethiopia’s efforts helped ensure that intended results were achieved, and the
activities made a positive impact. This activity has been carried out through the
mission’s logistics partners, Rational Pharmaceutical Management Plus and Supply
Chain Management System, which support the overall PEPFAR program. The positive
aspects to date show that USAID/Ethiopia has procured buffer stocks for antiretroviral
drugs, HIV test kits, and opportunistic-infection drugs to address emergency shortages
and prevent running out of stock. In addition, USAID partners have assessed national
commodity needs and provided technical training to health facility staff in Ethiopia. The
mission has also taken important actions to address commodity storage problems by
obtaining cold-storage space for commodities and renting warehouses. (See pages 9–
12.)

Nevertheless, the audit identified the following areas that needed improvement:

    •   Data quality.
    •   A mission performance management plan that did not reflect the current
        program.
    •   Health centers that experienced shortages of opportunistic-infection drugs, some
        lab supplies, and some types of HIV test kits.
    •   Inventory records that did not always provide complete information on the status
        of commodities on hand.

To address the four areas, the report recommended that USAID/Ethiopia strengthen its
program by (1) performing a data quality assessment and continuing the mission’s
efforts to help support the Government of Ethiopia’s Health Management Information
System, (2) developing a performance management plan to reflect the current program,
(3) developing and implementing an action plan to improve the supply and distribution of
commodities, and (4) developing and implementing a plan for providing inventory
management training. (See pages 13–18.)

The mission concurred with the report’s recommendations and has begun taking actions
on all five recommendations. Management comments are presented in their entirety in
appendix II.



                                                                                       2
BACKGROUND
In 2003, the United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act
was signed into law. The act, commonly referred to as the President’s Emergency Plan
for AIDS Relief (PEPFAR), was a 5-year, $15 billion approach to combat the global
HIV/AIDS pandemic. Included in the PEPFAR strategy are goals to support treatment
for 2 million HIV-infected people, prevent 7 million new HIV infections, and provide care
to 10 million people infected with or affected by HIV/AIDS in 15 focus countries. 2 On
July 30, 2008, the Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008 was signed
into law. This law expanded the U.S. Government’s commitment to PEPFAR for 5
additional years, from 2009 through 2013. It authorized up to $39 billion in funding for
PEPFAR bilateral HIV/AIDS programs and the U.S. contribution to the Global Fund to
Fight HIV/AIDS, Tuberculosis and Malaria.

New HIV infections in children are estimated at more than 700,000 cases annually
worldwide. The leading source of these infections comes from mother-to-child
transmission. Without intervention, HIV-positive mothers have a 35 percent overall risk
of transmitting HIV to their children during pregnancy, delivery, and breastfeeding.
Prevention of mother-to-child transmission remains an important challenge in combating
the spread of this disease. Building upon the original PEPFAR goals, PEPFAR now
aims to provide 80 percent of pregnant women with program services and reduce
mother-to-child transmission by 40 percent in the focus countries. Simple but effective
interventions include:

    •   Routine HIV counseling and testing in prenatal and maternity settings.
    •   Combination-drug antiretroviral treatment for mothers and infants and
        antiretroviral treatment for eligible mothers.
    •   Counseling and support for infant feeding.
    •   Links to services such as nutrition, family planning services for women with HIV,
        and microeconomic activities.
    •   Strong links to care, treatment, and support services.

Ethiopia is a highly populated country of 83 million people that has a sizable population
in rural and suburban areas. Most pregnant women in Ethiopia do not receive prenatal
care, and they deliver their children outside of health facilities. 3 The Government of
Ethiopia has taken several steps to improve the impact of program interventions,
including modifying national guidelines to (1) provide HIV testing, (2) screen all HIV-
positive women for treatment, (3) provide HIV-positive women with antiretroviral
treatment, and (4) treat women when appropriate in health care facilities.


2
   The 15 focus countries consist of 12 countries in Africa (Botswana, Côte d’Ivoire, Ethiopia,
Kenya, Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, and Zambia)
and 3 other countries (Guyana, Haiti, and Vietnam). More than 50 percent of all perinatal
infections (an infection caused by HIV that can be passed from a mother to her baby) occur in
these focus countries.
3
  “Prenatal care” is the care a woman receives throughout her pregnancy. Improved prenatal care
can help to reduce the rate of mother-to-child transmission of HIV.


                                                                                             3
The U.S. Government’s PEPFAR activities in Ethiopia include the collaborative efforts of
the Centers for Disease Control and Prevention (CDC), USAID/Ethiopia, and the U.S.
Embassy/Addis Ababa. They work in conjunction with the Government of Ethiopia and
other donors. In Ethiopia, PEPFAR supports a comprehensive, coordinated program
and HIV care and treatment services. The U.S. Government’s goal for its program
activities is to improve the survival rate for mothers and children and maximize the
number of AIDS-free children. The 2005 Ethiopia Demographic and Health Survey
found that both maternal and child mortality rates have steadily decreased in Ethiopia
over the past 15 years. For example, infant mortality declined by 19 percent, and
mortality of children under age 5 declined by 25 percent. The mission believed that this
was in part due to USAID’s efforts in both maternal and child health as well as in
prevention of mother-to-child transmission of HIV.

A program portfolio review conducted by USAID and CDC in late FY 2008 found,
however, that the U.S. Government’s efforts fell short of meeting the established targets
for four program indicators in FY 2008. The following table shows the results.

Table 1. U.S. Government’s Program Indicators and Reported Results for FY 2008
                                                                            Percentage
                     Indicator                      Target    Actual
                                                                             Achieved
    Number of pregnant women who received
    HIV counseling and testing for prevention of
                                                    260,103   214,160          82%
    mother-to-child transmission and received
    their test results
    Number of service outlets providing the
    minimum package of prevention of mother-
                                                     656        429            65%
    to-child transmission services according to
    national and international standards
    Number of health workers trained to provide
    services to prevent mother-to-child
                                                     2,762     2,259           82%
    transmission according to national and
    international standards
    Number of HIV-infected pregnant women
    who received antiretroviral prophylaxis for
                                                    12,831     5,290           41%
    prevention of mother-to-child transmission in
    a program setting

Mission staff said that the U.S. Government’s overall targets were too high to be
achieved because of significant challenges encountered in Ethiopia. According to a
USAID Global Health Bureau official, when the PEPFAR targets were set in 2003 the
HIV prevalence rate (the measure of the proportion of people in the population affected)
in Ethiopia was estimated at 6.4 percent. The official elaborated that “most targets are
more than three times higher than they would be if the current and more accurate
estimate from 2005 had been used.” In 2005 the estimated prevalence rate was
1.4 percent for ages 15–49, with significantly higher rates in urban and suburban areas,
as reported by the U.S. Government. 4 Although the overall U.S. Government targets
were not met in FY 2008, the U.S. Government did achieve notable increases over the
past year for the number of pregnant women treated and the number that received
antiretroviral prophylaxis.

4
 In July 2008, the Joint United Nations Programme on HIV/AIDS reported that the estimated
2007 adult prevalence rate in Ethiopia was 2.1 percent.


                                                                                         4
In 2003 USAID/Ethiopia began program activities, several months before the
introduction of PEPFAR in 2004. The mission’s program has focused on strengthening
primary care and community-level health services and is an important part of the U.S.
Government’s implementation of PEPFAR. In part, these activities include working with
partners to conduct training to improve health providers’ knowledge and skills. Other
activities involve working with community volunteers, health extension workers, and HIV-
positive mothers to increase awareness and support for prenatal and program services.
According to the mission, it continued program support in late 2003 through a
cooperative agreement with Intrahealth International, Inc., to serve as a key
implementing partner for its program activities. Approximately $9 million was allocated
for program activities carried out in Ethiopia during FY 2008, of which approximately
$6.3 million was for USAID/Ethiopia. Approximately $5 million went to Intrahealth.

The program portfolio review team identified Ethiopia as one of the lower-performing
PEPFAR countries for this program, with the use of program services remaining
consistently low. Key impediments that the team identified included:

   •   Low use and coverage of prenatal services.
   •   Low involvement of men in the program.
   •   Poor understanding of the program by health staff.
   •   High staff turnover and lack of incentives to care providers.
   •   Lack of integration of activities with other relevant health activities.
   •   Shortage of test kits.
   •   Inadequate care and support for families and lack of psychosocial support to
       counter stigma and discrimination.
   •   Difficulty in following up on services provided to women and children.

AUDIT OBJECTIVES
This audit was conducted at USAID/Ethiopia as the first in a series of audits of USAID’s
PEPFAR-funded activities and commodities for the prevention of mother-to-child
transmission of HIV, pursuant to the Office of Inspector General’s FY 2009 audit plan.
The audit was designed to answer the following questions:

   •   Did USAID/Ethiopia’s activities for the prevention of mother-to-child transmission
       of HIV contribute toward meeting mandated targets, and what impact have these
       activities made?
   •   Did USAID/Ethiopia procure, store, and distribute commodities for the prevention
       of mother-to-child transmission of HIV to help ensure that intended results were
       achieved, and what impact have these activities made?




                                                                                       5
AUDIT FINDINGS
Did USAID/Ethiopia’s activities for the prevention of mother-to-
child transmission of HIV contribute toward meeting mandated
targets, and what impact have these activities made?
USAID/Ethiopia’s activities for the prevention of mother-to-child transmission contributed
toward meeting mandated targets. USAID/Ethiopia, in fiscal year (FY) 2008, achieved
three of the four program indicator targets tracked as part of the President’s Emergency
Plan for AIDS Relief (PEPFAR) activities. These activities help support the U.S.
Government’s program goals to improve the survival rate of mothers and children and
maximize the number of AIDS-free children. Although the mission did not specifically
track the impact of its program activities, evidence collected during the audit indicated
that program activities have had a positive impact on the communities served.

In spite of progress the program has made, significant challenges have hindered efforts
to improve the low usage of program services nationwide. Many of the difficulties are
caused by the overall weakness of the national health system, especially in the rural
areas, which have fewer health centers to provide treatment for pregnant women and
where the mission conducts some of its activities. USAID is helping to build support in
other health programs to overcome these problems.

The following two sections provide details on USAID/Ethiopia’s program results and
impact.

USAID/Ethiopia Program Results

The audit found that USAID/Ethiopia was making inroads in FY 2008 to address
program challenges. During that period, USAID/Ethiopia reported that it had exceeded
one program performance indicator and had nearly met the targets for two indicators by
achieving over 90 percent. However, it fell short of achieving the target for one program
indicator. According to mission staff, USAID had one partner, Intrahealth International,
Inc., reporting against these indicators. The following table provides FY 2008 data on
the program indicators, including targets and reported results.




                                                                                        6
Table 2. USAID/Ethiopia’s Program Indicators and Reported Results for FY 2008
                                                                             Percentage
                  Indicator                      Target         Actual
                                                                              Achieved
 Number of pregnant women who received
 HIV counseling and testing for prevention of
                                                 116,703       107,123           92%
 mother-to-child transmission and who
 received their test results
 Number of service outlets providing the
 minimum package of services to prevent
                                                  267            247             93%
 mother-to-child transmission according to
 national and international standards
 Number of health workers trained to provide
 services to prevent mother-to-child
                                                  740            944            128%
 transmission according to national and
 international standards
 Number of HIV-infected pregnant women
 who received antiretroviral prophylaxis for
                                                  6,629         1,225            18%
 prevention of mother-to-child transmission in
 a program setting

The audit found that, in helping to achieve these results, the mission staff had monitored
the program activities of its partners through site visits, meetings with partners, e-mail,
telephone communications, and reviews of status reports. Further, in FY 2008, the
mission hired four staff members (including medical doctors) to provide ongoing and
regular site visits to monitor activities and provide recommendations to address
problems.

Program Impact

According to a mission official, not many Ethiopian women are willing or able to obtain
prenatal care. Until this challenge is addressed, the mission will have difficulty showing
a positive impact from program activities. Despite the problems facing its activities in
Ethiopia, the program is making progress on several fronts, as a result of the
contributions made by USAID/Ethiopia, other donors, and the Ethiopian Government.
The program has helped integrate prenatal care with services to prevent mother-to-child
transmission of HIV. For instance, a mid-2003 assessment conducted in six regions in
Ethiopia identified no program activities. The U.S. Government now supports program
services in over 425 health outlets nationwide and has reached over 100,000 women. In
addition, the audit team noted that two of the program indicators reported by
USAID/Ethiopia’s partner, Intrahealth International, Inc., showed substantial increases
for two important indicators over the past 2 years. The following table provides
additional information on these indicators and their results in FY 2007 and FY 2008.




                                                                                          7
Table 3. USAID/Ethiopia’s Program Indicators and Reported Results

                      Indicator                        FY 2007            FY 2008      Percentage
                                                       Results            Results      Increase
    Number of pregnant women who received HIV
    counseling and testing for prevention of
                                                            56,385           107,123      90%
    mother-to-child transmission and received
    their test results
    Number of HIV-infected pregnant women who
    received antiretroviral prophylaxis for
                                                             616              1,225       99%
    prevention of mother-to-child transmission in a
    program setting

The audit found other examples of the progress that is taking place in the communities
served by USAID’s program activities. These include:

      •    A pilot program was started in 2008 at 22 health centers to increase men’s
           participation in their partners’ program activities. A USAID partner said that in
           Ethiopia most pregnant women do not want to be tested for HIV. If they test and
           are positive, they are often hesitant to take antiretroviral drugs. 5 In addition, men
           are subject to strong, culturally based resistance to participation in program
           activities with their partners. According to the mission’s partner staff, since the
           program started, men are starting to come to the program centers with their
           partners and partner testing has increased. At the health center visited in July
           2008, 35 families were tested for HIV; a month later 80 families were tested.
           This trend was expected to continue.

      •    A mothers’ support group member at a PEPFAR-funded program clinic said that
           mothers have received benefits through this activity. This group encourages
           women to disclose their HIV status to their partners and communities. All the
           members said that they had disclosed their HIV-positive status to their partners,
           and some of their partners subsequently have come in for testing. However,
           disclosing their status to their partners has come at a price for some of these
           women: they have been outcast, divorced, or denied financial support by their
           partners. The emotional support the group members have provided for each
           other has been an important benefit of the program. The group had 47 women
           who had given birth, and 37 babies were born HIV negative. It attributed this
           outcome to the mothers’ support group and the program care it received. For
           those children who were HIV positive, referrals were provided to obtain
           treatment.

In spite of the benefits that have come from USAID/Ethiopia’s activities, Ethiopia
performed lower in prevention of mother-to-child transmission when compared with the
other PEPFAR countries. This comparative status was identified by USAID and the
CDC in a late FY 2008 program portfolio review. Challenges remain in overcoming
impediments that affect efforts to increase the use of program services nationwide. For
instance, only 6 percent of Ethiopian women give birth at a health facility, preferring
instead to deliver at home. In addition, only 28 percent of pregnant women come to a
health facility for prenatal care. According to the mission, a major factor that they face is

5
    Drugs used to kill or inhibit the multiplication of retroviruses such as HIV.


                                                                                                8
the overall weakness of the national health system. This weakness is worse in the rural
areas, which have fewer health centers to provide treatment for pregnant women. The
mission is trying to build support with other health programs to overcome these
problems. According to a mission official, they cannot control any disease, including
HIV/AIDS, until a sound health system is in place. At this time, few health facilities offer
program services, and the existing health services are underused.

USAID/Ethiopia officials also said that they are not able to retain Foreign Service
nationals working on the PEPFAR program at the salary levels that the mission is
permitted to offer. According to mission officials, the U.S. Embassy’s method for
establishing Foreign Service nationals’ salaries tends to be biased in favor of
administrative support skills and not technical skills.      The problem has been
compounded by inflation in Ethiopia and keen competition from other employers wanting
to hire employees with PEPFAR experience. As a result, the mission has high staff
turnover in its PEPFAR program. The mission has hired several medical doctors, but
the mission believes they will leave within a short period to work for other donors or
partners after they obtain USAID experience. 6

Did USAID/Ethiopia procure, store, and distribute commodities
for the prevention of mother-to-child transmission of HIV to help
ensure that intended results were achieved, and what impact
have these activities made?
USAID/Ethiopia has contributed to the procurement, storage, and distribution of
commodities for the program to prevent mother-to-child transmission of HIV to help
ensure that intended results were achieved. In the area of procurement, USAID/Ethiopia
procured opportunistic-infection drugs to avoid running out of stock, HIV test kits to
address emergency shortages, and buffer stocks for antiretroviral drugs. The mission’s
partners have also procured other commodities, such as chemicals and medical
equipment. In addition, its partners have supported assessing national commodity
needs and provided technical training to health facility staff.

In the case of storage, the mission has helped support the Government of Ethiopia in
improving the storage areas for commodities. For instance, the mission helped renovate
a building to provide much-needed additional cold-storage space for commodities. The
mission has initiated the procurement of generators to provide reliable backup power for
regional warehouses. Finally, the mission has rented temporary warehouses to provide
additional storage space for commodities.

In the area of commodity distribution, the mission has helped to ensure the distribution of
needed commodities. In this effort, USAID/Ethiopia has (1) initiated procurement of 24
vehicles and will use them to help solve problems with drug and commodity distribution,
and (2) proposed to the Government of Ethiopia that the mission will help deliver
commodities that were not distributed on schedule and transport them from the regional
warehouses to the health centers.


6
  USAID/Ethiopia also expressed concern that an upcoming move to the new U.S. Embassy
compound would limit its ability to hire additional staff, because space limitations preclude
increased staffing levels.


                                                                                           9
The mission’s program, along with activities of other donors, has had a positive impact
on the procurement, storage, and distribution of commodities in Ethiopia. Formal impact
indicators have not been established for these activities. However, the audit found
evidence that the mission’s activities were having a positive effect. For instance, the
activities of USAID/Ethiopia helped to ensure the availability of commodities used to
prevent mother-to-child transmission, such as HIV test kits and antiretroviral drugs.
Most notably, at the health centers visited, the audit identified no instances of shortages
of Nevirapine, an important drug used in the program to help prevent mother-to-child
transmission of HIV. The mission’s support for the program is especially important
because of the significant challenges encountered in Ethiopia. Additional details on the
results and impact of the mission’s procurement, storage, and distribution of
commodities activities are provided below.

Procurement Results. USAID/Ethiopia has fulfilled its responsibilities for the PEPFAR
program’s activities for prevention of mother-to-child transmission by procuring buffer
stocks of antiretroviral drugs to avoid running out of stock as well as supporting the
Government of Ethiopia in assessing its commodity needs. The mission has helped to
procure opportunistic-infection drugs and HIV test kits to address emergency shortages.
In most instances, the Government of Ethiopia is responsible for procuring commodities,
except when emergency shortages at the national level require USAID intervention. In
FY 2008 USAID/Ethiopia did procure PEPFAR commodities that included chemicals,
medical equipment and supplies, and HIV test kits. Its partners also provided some
support in assessing national commodity needs and provided technical training to health
facility staff.

In February 2006, a memorandum of understanding was signed between the
Governments of the United States and Ethiopia, delineating the types of services to be
provided. For instance, the Government of Ethiopia’s HIV/AIDS Prevention and Control
Office is responsible for procuring and distributing first-line antiretroviral drugs for adults,
including Nevirapine, an important drug used by the program for helping prevent mother-
to-child transmission of HIV. Opportunistic-infection drugs and HIV test kits, which are
also important for the program, are procured by the Ethiopian Government using funds
from the Global Fund to Fight HIV/AIDS, Tuberculosis and Malaria or other donors.
According to the mission, its PEPFAR funding has been used to procure buffer stocks of
antiretroviral drugs to avoid running out. The mission also noted that they are not
responsible for procuring opportunistic-infection drugs or HIV test kits, except in the case
of emergency shortages. USAID/Ethiopia negotiated with Ethiopia’s Ministry of Health to
procure, but not fund, a portion of the opportunistic-infection drugs needed to avoid
running out of supplies in FY 2008. A mission official noted that this procurement
addressed a shortfall of opportunistic-infection drugs valued between $14 million and
$16 million. The mission also provided funding for HIV test kits in the case of
emergency shortages.

In FY 2008, USAID/Ethiopia procured commodities consisting of chemicals, medical
equipment and supplies, and HIV test kits totaling $87,408. The funding for this
procurement came primarily from commodity logistics partner Rational Pharmaceutical
Management Plus, with the exception of funding for the HIV test kits, which came from
Supply Chain Management System (SCMS), the other commodity logistics partner.
SCMS also managed the procurement process and provided customs clearance and
distribution costs for all HIV/AIDS commodities entering Ethiopia. SCMS also assesses



                                                                                             10
national commodity needs and provides technical training related to commodities to the
staff at the health facilities.

Storage Results. The storage conditions for commodities at the warehouses owned by
the Government of Ethiopia that were visited during this audit generally met international
storage guidelines. 7 The mission has helped the Ethiopian Government improve its
storage facilities. The audit did identify some storage weaknesses, which the mission
was already attempting to address.

The audit found that (1) storage areas were locked and access was limited to authorized
individuals only, (2) storage areas did not show signs of rodents or insects, (3) cartons
and products did not show signs of mishandling, (4) products that needed cold storage
were kept in refrigerators, and (5) cartons were arranged with arrows pointing up and
had identification labels, with manufacture and expiration dates visible. According to
mission officials and employees of the Government of Ethiopia at the warehouses
visited, no instances of commodity theft were identified.

Areas where storage weaknesses were identified included the central commodity
warehouse in Addis Ababa. It was not being efficiently utilized because the shelving
was unsuitable. USAID/Ethiopia is aware of the problem and is working with the Ministry
of Health to obtain shelving that will store the commodities efficiently.

At this facility, USAID/Ethiopia was involved in renovating an existing building to provide
much-needed additional cold-storage space for those commodities requiring
refrigeration. The mission, through SCMS, has also initiated the procurement of
generators to ensure a reliable power source for each regional warehouse. This
procurement was in response to the concerns raised in the partner’s FY 2008 annual
report, which observed that the lack of electricity at regional warehouses was a serious
constraint in operating a secure and reliable supply chain in Ethiopia, especially in the
management of products that require refrigeration. Backup generators were not always
available for power outages, and ice was used as a backup cooling method.

No recommendations related to storage issues are being made at this time, because the
mission is working with the Government of Ethiopia to address the most significant
problems. For example, the mission is renovating some facilities, renting temporary
warehouse spaces, and asking Ethiopia’s Ministry of Health to expand storage spaces
using Global Funds.

Distribution Results. Commodities procured by USAID/Ethiopia, the Government of
Ethiopia, and other donors are distributed from the Government of Ethiopia’s central
warehouse in Addis Ababa. 8 In this effort, the mission has helped to ensure the
distribution of needed commodities. Ethiopia’s Ministry of Health then distributes the
commodities to regional warehouses, from which the commodities are delivered to

7
  World Health Organization standards for the storage of essential medicines and other health
commodities.
8
  The Government of Ethiopia has a “push system” for commodity distribution—a centralized
system that distributes commodities to all health centers regardless of their needs. The system is
in transition to a decentralized “pull system” that will allow each health center to place orders
based on their stock levels and consumption needs.



                                                                                               11
health facilities. Officials from the mission and Government of Ethiopia stated that they
were not aware of any health facilities that had experienced shortages of antiretroviral
drugs.

Some problems encountered in drug and commodity distribution involved delays caused
by not having enough delivery trucks. In addition, the existing Ethiopian delivery vans
are unventilated. USAID/Ethiopia and its partner SCMS are in the process of procuring
24 vehicles to address these concerns. These vehicles will be provided to the Ethiopian
Government agency that operates the warehouses and distributes HIV/AIDS-related
pharmaceuticals and commodities.         USAID/Ethiopia has also proposed to the
Government of Ethiopia to deliver commodities that have been delayed in distribution
from the regional warehouses to the health centers. These actions will help to ensure
that health centers receive the commodities they need.

Program Impact. USAID’s efforts, along with those of other donors, contributed to the
procurement, storage, and distribution of the commodities and had a positive impact on
the program activities taking place in Ethiopia. Although the Office of the Global AIDS
Coordinator has not established any indicators related to the impact of the procurement,
storage, and distribution of commodities, the audit used other ways to determine the
impact of these activities. For instance, the activities of USAID/Ethiopia helped to
ensure that:

   •   HIV test kits were usually available at the health facilities where prenatal care
       was provided.
   •   Pregnant women were aware of their HIV status and the benefits of using
       Nevirapine.
   •   Pregnant women encouraged their spouses and other pregnant women to be
       tested.
   •   HIV-positive mothers, babies, and spouses received antiretroviral treatments.

Therefore, having access to these commodities has helped to prevent the spread of HIV
in Ethiopia. A mission official emphasized that each pregnant woman who has received
Nevirapine in Ethiopia did so as a result of USAID’s intervention that helped support
distribution of these commodities.

Notwithstanding the progress made to date, the audit identified five areas in which
improvements could be made to strengthen the existing internal controls for
commodities. These efforts include addressing (1) program data quality, (2) a health
information system, (3) a performance management plan, (4) an interim commodity
action plan, and (5) inventory management training.




                                                                                      12
Need for Data Quality
Assessment

    Summary: Agency policy recognizes the importance of having quality data to
    manage for results as well as taking steps to assess its quality. A program review
    as well as this audit found problems with data quality. The mission conducted a
    data quality assessment for one data indicator for prevention of mother-to-child
    transmission in 2006 and found no problems. Although the mission had planned to
    conduct data quality assessments in 2008, other priorities prevented this
    implementation. Without performing data quality assessments for its key program
    indicators, USAID/Ethiopia cannot ensure the validity and accuracy of its data.
    Furthermore, the mission has not been able to reprogram funds to help strengthen
    the Government of Ethiopia’s Health Management Information System, which is
    used to collect data and report on program activities.

The Automated Directives System (ADS) 203.3.5.1 recognizes the importance of data
quality standards in managing results and ensuring credible reporting. As part of this
effort, ADS 203.3.5.2 states that data reported to USAID/Washington to comply with the
Government Performance and Results Act of 1993 or for reporting externally on Agency
performance must have had a data quality assessment within 3 years before
submission. It further states that operating units may conduct data quality assessments
more frequently.

USAID/Ethiopia conducted a data quality assessment on October 5, 2006. No problems
were identified in the assessment, which included one indicator for prevention of mother-
to-child transmission, as reported by a key partner. 9 The Government of Ethiopia
collects program data from health facilities (health centers and hospitals) and then
provides this information to the mission’s partners.

The 2008 program portfolio review noted that the Ethiopian Government has gone to
great lengths to include program indicators in its national Health Management
Information System. However, the review noted that some indicators are likely
underestimating program achievement. Further, the review noted that poor data quality
existed because one-third of the health centers were not reporting regularly.

USAID staff and partners stated that they perform data testing during their site visits.
However, we found data problems during field testing. For instance, one private health
center new to the program was collecting data and reporting on prenatal care and
program patients separately. Until the audit testing was performed, the partner and the
mission were not aware that the center was keeping two different patient registers—one
for prenatal and another for program patients. The reported data did not properly
account for the all of the activities being carried out. Audit testing also identified
problems with data reported for the indicator “number of pregnant women who received
HIV counseling for prevention of mother-to-child transmission and received their test
results.” The audit also found several specific problems in the reporting of this indicator,
such as the following:

9
  The mission did not produce documentation that this assessment had been cleared and
approved.


                                                                                         13
     •   A health center in July 2008 reported 5 women, whereas the records showed
         195.
     •   A health center had reported a total of 384 women from June through September
         2008, but records showed 348 women. During this 4-month period, data had
         been overreported for 3 months and underreported for 1 month. The biggest
         difference occurred in August, when the center reported 120 women but the
         records supported 85 women.
     •   A health center underreported the number of women during July and August
         2008. For this period, the records identified 341 women, whereas 279 women
         had been reported.

USAID/Ethiopia had planned to conduct data quality assessments for 34 of their
PEPFAR partners beginning in June 2008. If these assessments had been conducted,
the mission could have identified the data problems. However, other priorities prevented
any assessments from being carried out. Several other reasons contributed to the data
problems, including (1) high turnover of health clinic staff, resulting in some new staff
who were not trained in data collecting and reporting; (2) manual, as opposed to
automated, collection of health center data; and (3) inability to implement reforms on the
Health Management Information System.

USAID/Ethiopia has not been successful in obtaining approval to reprogram its PEPFAR
funds to help support the improvement of the Ethiopian Government’s Health
Management Information System. According to the mission, funding this activity will
help address gaps in the national effort to improve the collection and reporting of
PEPFAR and Government of Ethiopia’s health data from health centers and health posts
(a lower-level community health center). USAID allocated funds to support reform of the
information system in the 2007 country operational plan. Subsequently, the mission
requested $960,000 for this activity, and it was approved by a technical working group
for the 2008 plan, but this activity was left out of the official 2008 plan. The mission staff
believed that it had been left out of the plan inadvertently. Two separate reprogramming
requests to rectify this error were denied by the Office of the Global AIDS Coordinator. 10
USAID/Ethiopia believes that implementing the information system is critical for
improving data from health centers and health posts—an area in which no other U.S.
Government agencies are providing assistance.

Without conducting periodic data quality assessments, USAID/Ethiopia cannot ensure
the validity and accuracy of the data reported to USAID/Washington. Unreliable data
can undermine the appropriateness of management decisions and the managers’ ability
to evaluate the effectiveness and efficiency of their programs. In this effort, the mission
recognized the need for conducting assessments of its partners’ data in 2008. However,
at the time of the audit, no assessment had been performed in 2008. Completing this
activity will place the mission in a better position to identify partners having data
problems that warrant the mission’s attention.


10
  The reprogramming request was denied on the grounds that it was a new activity and that more
than one U.S. Government entity would be supporting the same program area. According to the
mission, the other Government entity was the CDC, which provided assistance to hospitals but
not to health centers and health posts.



                                                                                           14
Beyond performing a data quality assessment, the mission has an opportunity to assist
with improving the data obtained from health centers and health posts. This can be
accomplished through helping to fund the planned reform of the information system.
Because the system is the primary reporting tool for program data, weaknesses in the
system have contributed to data problems. To help ensure that in the future data meets
the required quality standards, we are making the following recommendations.

      Recommendation 1: We recommend that USAID/Ethiopia develop a plan
      to assess data quality, which will include key HIV/AIDS care and treatment
      indicators that address indicators for the prevention of mother-to-child
      transmission.

      Recommendation 2: We recommend that USAID/Ethiopia develop a plan
      to continue in its efforts to work with the Office of the Global AIDS
      Coordinator to use PEPFAR funds to help implement the Government of
      Ethiopia’s Health Management Information System for health centers and
      health posts.

Need for a Performance Management Plan
That Includes Prevention of Mother-to-Child
Transmission of HIV

  Summary: Contrary to USAID guidance, the performance management plan for
  USAID/Ethiopia had not been updated to reflect the mission’s current program.
  According to the mission, it had not updated the plan because the Department of
  State’s Office of the Global AIDS Coordinator did not require one. The mission was
  not aware that in December 2006, USAID’s Administrator reiterated the
  requirement for developing performance management plans and emphasized the
  importance of maintaining comprehensive performance management plan systems.
  Without an updated plan, USAID/Ethiopia lacks a critical tool for planning,
  managing, and documenting the performance of its program activities.

ADS 203.3.3 states that Operating Units must prepare a complete performance
management plan for each strategic objective within the first few months of approval of
the strategic objective. It also notes that a performance management plan (performance
plan) is a “tool used by an Operating Unit and Strategic Objective Team to plan and
manage the process of assessing and reporting progress towards achieving a Strategic
Objective.” The performance plan must provide performance indicators that include
baseline levels and targets to be achieved. ADS 203.3.4.6 states that usually, as part of
the Operating Unit’s annual portfolio review process, Operating Units should update
performance plans regularly with new performance information as programs develop and
evolve. Finally, an action memorandum approved by USAID’s Administrator on
December 1, 2006, reiterated the requirement to develop performance plans and the
importance of maintaining comprehensive performance plan systems.                    On
February 5, 2009, the USAID official responsible for developing ADS 203 noted that
PEPFAR activities were not exempt from the performance plan requirements.

The most recent performance plan that dealt with USAID/Ethiopia’s PEPFAR activities
was approved in September 2004. However, it had not been updated and thus did not


                                                                                       15
reflect the mission’s current activities to prevent mother-to-child HIV transmission.
Although the mission did not maintain a current performance plan, the mission did
require these plans for its PEPFAR partners.

According to the mission staff, they had not developed a performance plan because the
Department of State’s Office of the Global AIDS Coordinator did not require one. They
noted that they were not aware of the December 2006 USAID Administrator’s reiteration
of the requirement to develop performance plans. The mission also said that updating
its outdated performance plan would result in a great deal of extra work. It questioned
whether it made sense to follow USAID’s requirements if the Office of Global AIDS
Coordinator does not require a performance plan and if other PEPFAR partners, such as
the CDC, are not required to develop such plans.

Without an updated performance plan, however, USAID/Ethiopia lacks a critical tool for
planning, managing, and documenting the performance of its program activities.
Moreover, the mission does not have sufficient assurance that it is maintaining controls
essential to the operation of a credible and useful performance-based management
system.    Our recommendation to address this issue is consistent with similar
recommendations we have made on other PEPFAR audits.

      Recommendation 3: We recommend that USAID/Ethiopia develop a
      performance management plan that includes its activities for the prevention
      of mother-to-child transmission of HIV.


Need for an Interim Action
Plan to Support Commodity
Supplies

  Summary: The “Six Rights” of health commodity logistics are that the right
  products, in the right quantities, in the right condition, are delivered to the right
  place, at the right time, for the right price. However, some health centers
  experienced shortages of opportunistic-infection drugs, some lab supplies, and
  some types of HIV test kits. The shortages occurred because no system is in place
  to ensure that adequate amounts of health commodities are kept in stock. Without
  accurate information on the commodities on hand and projected consumption for
  the future at each health facility, the difficulty of maintaining adequate amounts of
  commodities at the right places, when needed, could limit the positive impact of
  program activities.


The United Nations Population Fund’s “Six Rights” approach to health commodity
logistics is summarized in a statement that the right products, in the right quantities, in
the right condition, are delivered to the right place, at the right time, for the right price.
The Federal Ministry of Health of Ethiopia uses the “Six Rights” approach for its health
commodity supply system to ensure that essential drugs and health commodities are
readily available to public sector health facilities.

At the six selected health centers visited, five had experienced shortages of drugs, HIV
test kits, or lab supplies. Two health centers experienced shortages of HIV test kits and


                                                                                           16
opportunistic-infection drugs, one center had shortages of lab supplies and
opportunistic-infection drugs, and another experienced shortages of HIV test kits. 11
However, none of the health centers visited reported any shortages of antiretroviral
drugs.

We identified the following problems at the health centers visited:

     •    A health center in Addis Ababa had shortages of opportunistic-infection drugs
          and lab supplies and, at times, shortages of HIV test kits. The partner official
          added that to provide comprehensive prenatal care to pregnant women, the
          center needs to be equipped to conduct hemoglobin tests, urine tests, and
          venereal disease tests. The center did not have the lab supplies needed to
          conduct these tests.
     •    A health center in Oromia did not have Unigold test kits available when needed,
          and patients needing this test were referred to local hospitals. Unigold test kits
          are used to make a final determination of HIV status for clients who have had
          differing test results (testing positive initially with a followup test showing
          negative).
     •    A health center in Amhara had sent requests for the Stat pack HIV test kits to the
          Ministry of Health zonal and regional offices 2 weeks before it ran out of the kits.
          However, it had not yet received them and as a result was unable to provide
          testing for 5 days. Stat pack test kits are used as a second test, for confirmation,
          when the initial HIV test result is positive.

A mission official noted that the shortages were caused in large part by the lack of a
logistics management information system. However, according to this official, such a
system may take up to 2 years to institute at the national level. The official also noted
that the mission and one of its commodity logistics partners have discussed an interim
solution based on an existing system that tracks antiretroviral drugs and which has been
successful to date—resulting in no reports of the drugs being out of stock. The existing
system tracks inventory of the items on hand, received, and consumed, the ending
inventory, and projected future consumption. A manual system for tracking antiretroviral
drugs is in place at smaller health centers, and a computerized system is maintained at
the hospitals and larger health centers. An interim plan for health commodities other
than antiretroviral drugs has not yet been discussed in detail or implemented.

Without accurate information on the commodities on hand and projected consumption
for the future at each health facility, the difficulty of maintaining adequate stocks of
commodities could limit the positive impact of program activities. An interim system
would allow for the collection of information, such as commodity needs and consumption
levels, to help managers make decisions about supply and distribution. As such, to help
alleviate this problem, we are making the following recommendation.

         Recommendation 4: We recommend that USAID/Ethiopia, in collaboration
         with its commodity logistics partners, develop and implement a detailed
         interim action plan to obtain accurate data from health centers and hospitals
         to improve the supply and timely distribution of commodities, assuming that
         funding is available.

11
   For one of the six health centers visited, due to time constraints, the visit included only a
discussion of program activities.


                                                                                             17
Need for Inventory Management
Training

     Summary: Contrary to Guidelines for the Storage of Essential Medicines and Other
     Health Commodities and the U.S. Government Accountability Office’s Standards for
     Internal Control in the Federal Government, stock cards were not always properly
     completed to provide a complete record of status of commodities on hand. Expired
     drugs were stored with other drugs in a pharmacy. Commodities were found that
     could not be consumed within their remaining shelf lives. At the selected health
     centers visited, the same commodities were found to be either in shortage or
     oversupply. These problems occurred due to the attrition of the Government of
     Ethiopia’s previously trained staff, coupled with new, untrained staff.

Guidelines for the Storage of Essential Medicines and Other Health Commodities 12
provides directions on receiving and arranging commodities, keeping track of products in
the storeroom, maintaining the quality of the products, and setting up a medical store.
Moreover, the Government Accountability Office’s Standards for Internal Control in the
Federal Government (GAO/AIMD—00-21.3.1) states that transactions should be
recorded promptly, completely, and accurately, and the documentation should be readily
available for examination.

For the most part, adequate internal controls over commodities were in place, but
controls were not always followed to an extent that would allow for testing of the
inventory on hand at storage facilities. For example, stock cards were not always
properly completed to provide an accurate and complete record of status of commodities
on hand. Stock cards did not include beginning inventory, quantity and value of items
received, expiration dates, items disbursed or consumed, and ending inventory.
Furthermore, in a health center visited, the record of the last inventory of the
commodities in their storage room was not available for review.

In a regional warehouse visited, records of commodities received by the warehouse and
commodities distributed to the health facilities were all kept in an office adjacent to the
warehouse. Two staff members were responsible for recording and maintaining the
existing manual inventory system. However, many details of receiving and disbursing
commodities were not yet recorded. As such, the records of the manual inventory
system did not represent the actual physical inventory of the commodities at the
warehouse. According to the warehouse manager, the facility did not have adequate
staff to keep up-to-date records of commodities received and disbursed. Stock cards
were not updated to account for commodities on hand.

The audit found that these problems contributed to a shortage or oversupply of specific
commodities at the selected health centers visited. These included:

      •   An oversupply of Nevirapine, acquired for program purposes, which would expire
          prior to its consumption unless utilized as a second choice for antiretroviral
          treatment, according to the partner official.

12
     Developed by John Snow Inc., in collaboration with the World Health Organization.


                                                                                         18
   •    An oversupply of first-line antiretroviral drugs, which, according to the partner
        official, would expire within a month and without adequate time for consumption.
   •    Two bottles of Nevirapine and six bottles of Lamivudine (drugs to prevent
        mother-to-child transmission) that had expired by the time of the audit were not
        separated from other drugs at the pharmacy/dispensary.
   •    An unopened box of UniGold test kits was found at the laboratory with the
        expiration date of December 2008. According to the partner official, this was a 1-
        year supply, which would expire in a month without time to consume. He further
        noted that other health centers in the rural areas needed these kits. The shelf life
        (the manufacturing date less the expiration date) for these kits was 14 months.
        The health center had received those kits 4 months previously. The partner
        official noted that this could be partly a result of the national commodity
        distribution “push system.”

Inventory management problems occurred because of the loss of trained staff and new,
untrained staff coming on board. Because the commodity distribution system is in
transition to the “pull system,” as discussed earlier in this report, the system’s success is
contingent upon having a good manual system in place. Therefore, it is imperative that
staff who have responsibility for commodities be trained in inventory management at the
health centers. This will help avoid excess supplies of commodities, which then expire.
To help alleviate this problem, we are making the following recommendation.

       Recommendation 5: We recommend that USAID/Ethiopia, in collaboration
       with the Ethiopian Ministry of Health and other implementing partners,
       develop and implement a plan to provide periodic or refresher training on
       inventory management at storage facilities for staff responsible for receiving
       and disbursing commodities. This should include information on the
       importance of properly completing stock cards to reflect the status of
       commodities on hand.




                                                                                          19
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Ethiopia concurred with all five recommendations.
In addition, the mission made comments and provided additional support and
information, which we have incorporated in the report as appropriate.

For example, the mission did not agree that the U.S. Government’s goal to improve the
survival rate for mothers and children and maximize the number of AIDS-free children
has not been met in Ethiopia. To support its position, the mission provided the “Ethiopia
Demographic and Health Survey for 2005 that reported a decrease in maternal and child
mortality rates for the past 15 years.” In addition, the mission indicated that USAID’s
program had provided Nevirapine to 758 newborns of HIV-positive mothers in FY 2008,
thus increasing the number of AIDS-free babies. This indicator did not fall within the
PEPFAR program and therefore was not within the scope of our audit for testing. The
mission’s comments and an evaluation of those comments are summarized below.

Recommendation 1: That the mission develop a plan to assess data quality to include
key HIV/AIDS care and treatment indicators that address indicators for the prevention of
mother-to-child transmission. The mission fully supports this recommendation and has
taken steps to ensure that regular data quality assessments are conducted. However,
the mission disagreed with several items in the report and provided clarifications, as
described in the following paragraphs.

The mission disagreed with the statement that “one-third of health centers were not
reporting regularly.” It indicated that this irregularity occurred during the fourth quarter
reporting period in FY 2008 and that its implementing partner intervened by visiting the
delinquent health centers to collect the mission data. It also denied that a mission staff
member had said, “The mission underreports data when data quality is in question.”
According to the mission, despite the best efforts of USAID and its implementing
partners to collect data, some health centers do not report on time causing an
underreporting of the program results.

In response to our recommendation, the mission filled the position of quality assurance
specialist, which will support the PEPFAR team in conducting data quality assessments.
The strategic information advisor has begun preparing a new assessment schedule and
plans to conduct assessment training in June 2009. The mission has also scheduled a
visit to its implementing partner, Intrahealth International, Inc., to conduct data quality
assessment in June 2009. The mission believes the necessary actions have been
initiated to resolve this recommendation and will request closure once the assessment
plan and training are completed. On the basis of the mission’s response, a management
decision has been reached on this recommendation.

Recommendation 2: That the mission develop a plan to continue in its efforts to work
with the Office of the Global AIDS Coordinator to use PEPFAR funds to help implement
the Government of Ethiopia’s Health Management Information System for health centers
and health posts. The mission concurred with our recommendation and noted that it



                                                                                         20
believes the necessary actions have been taken to address the recommendation. The
mission requested, therefore, that this recommendation be closed.

In collaboration with other donor agencies, such as UNAIDS (Joint United Nations
Programme on HIV/AIDS), the mission plans to help the Government of Ethiopia
implement the Community-Based Health Management Information System. This system
will provide information regarding quality and completeness of services provided at the
community and health-post levels and will facilitate reporting consistent and reliable
program performance data to higher levels. The system will include monitoring
community-based activities to prevent mother-to-child transmission, including the
number of referrals to antenatal care and services made by health extension workers.
The mission submitted this plan to the Office of the Global AIDS Coordinator in April
2009 and received approval to implement the system. On the basis of the mission’s
response, a management decision has been reached on this recommendation, and the
recommendation will be closed when the mission provides supporting documentation to
USAID’s Audit, Performance and Compliance Division.

Recommendation 3: That the mission develop a performance management plan that
includes its activities for the prevention of mother-to-child transmission of HIV. The
mission is in full agreement that the existing performance management plan needs to be
updated. Accordingly, the mission formed an internal working group with technical and
monitoring and evaluation staff from the Health, AIDS, Population and Nutrition team
and program office to update the existing performance plan. The mission also engaged
the USAID/East Africa monitoring and evaluation expert to help the team prepare an
updated performance plan. A management decision will be reached once the mission
provides to the Office of Inspector General a timeline for its revision to the performance
management plan.

Recommendation 4: That the mission, in collaboration with its commodity logistics
partners, develop and implement a detailed interim action plan to obtain accurate data
from health centers and hospitals to improve the supply and timely distribution of
commodities, assuming that funding is available.            The mission supports this
recommendation and noted that it will work with the commodity logistics partners to
develop a detailed action plan to obtain better data from health centers.

In addition, the mission will work through the U.S. Government’s interagency technical
working group (Technical Working Group—TWG) and its implementing partners to
ensure joint collaboration and input on the action plan, which is expected to be finalized
by the end of August 2009. On the basis of the mission’s response, a management
decision has been reached on this recommendation.

Recommendation 5: That the mission, in collaboration with the Ethiopian Ministry of
Health and other implementing partners, develop and implement a plan to provide
periodic or refresher training on inventory management at storage facilities for staff
responsible for receiving and disbursing commodities. The training should include
information on the importance of properly completing stock cards to reflect the status of
commodities on hand. The mission fully supports this recommendation. In collaboration
with the Ministry of Health, the mission’s logistics partners developed a plan and began
conducting onsite and on-the-job refresher training on inventory management, and they
are incorporating this element into the existing training for pharmacists. The mission,
implementing partners, and the Ministry of Health will review the updated training and


                                                                                       21
will increase the joint supervision of health facilities. The mission requested that this
recommendation be closed. On the basis of the mission’s response, a management
decision has been reached on this recommendation.                  Final action on the
recommendation can be reached when documentation of this training is presented to
USAID’s Audit, Performance, and Compliance Division.




                                                                                      22
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit objectives. We
believe that the evidence obtained provides such a reasonable basis. The audit was
designed to answer the following audit objectives:

   •   Did USAID/Ethiopia’s activities for the prevention of mother-to-child transmission
       of HIV contribute toward meeting mandated targets, and what impact have the
       activities made?
   •   Did USAID/Ethiopia procure, store, and distribute commodities for the prevention
       of mother-to-child transmission of HIV to help ensure that intended results were
       achieved, and what impact have the activities made?

Fieldwork was conducted at USAID/Washington, USAID/Ethiopia, partner offices in
Addis Ababa, and selected sites throughout Ethiopia. Field work in Ethiopia was
conducted from November 17 to December 4, 2008. Site visits were conducted at the
Ethiopian Ministry of Health’s central commodity warehouse in Addis Ababa, a regional
commodity warehouse in Amhara, six health centers, and a traditional neighborhood
association.

The health centers were in Amhara and Oromia regions and in Addis Ababa. The
selection criteria were accessibility, diversity of the programs to prevent mother-to-child
transmission, and a combination of urban, suburban, and rural areas to help provide an
overview of the program activities in Ethiopia.

In conducting this audit we assessed the effectiveness of internal control related to the
President’s Emergency Plan for AIDS Relief (PEPFAR). We identified pertinent controls
such as (1) the mission’s documentation related to managing and monitoring the
program, (2) its partners’ reporting, (3) establishment and maintenance of site visit
information, and (4) the mission’s annual self-assessment of internal control in
accordance with the Federal Managers’ Financial Integrity Act of 1982. In addition, we
tested some aspects of internal control that selected partners maintained for their
PEPFAR activities.

The scope of this audit included USAID/Ethiopia’s program activities carried out during
fiscal year (FY) 2008, which were funded at approximately $6.3 million. We interviewed
and reviewed documentation for selected partners who represented the greater part of
funding for the program activities carried out during FY 2008.




                                                                                        23
Methodology
To answer the audit objectives, we met with officials in the Global Health Bureau’s Office
of HIV/AIDS in USAID/Washington, mission officials at USAID/Ethiopia, and selected
partners in Ethiopia. We reviewed and analyzed the FY 2007 country operation plan for
Ethiopia, annual progress report for FY 2008, the 2008 program portfolio review, work
plans of USAID/Ethiopia’s selected implementing partners, quarterly progress reports,
and mission and partner trip reports.

At the health centers, we tested for the accuracy of the numbers reported for the
program indicators and obtained collected data pertinent to the program. We reviewed
the internal controls related to inventory management. We also inquired about the
shortage or excess supply of program commodities and the type of program services
provided for pregnant women at the health centers visited. We observed the storage
conditions of the commodities at the storage rooms, dispensaries, and laboratories of
the health centers visited and examined commodities for expiration dates and shelf life.

At the warehouses, we observed the infrastructure and storage conditions, reviewed the
internal controls related to inventory management, and interviewed the staff for
receiving, storing, and distributing the commodities. We also conducted test counts,
when possible, and examined commodities for expiration dates.

In determining whether a specific target was achieved, the audit utilized a threshold
criterion of achieving at least 90 percent of the target.




                                                                                       24
                                                                            APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM

Date:          June 8, 2009

To:            Steven H. Bernstein, IG/A/PA Director

From:          Gerald A. Cashion, Acting Mission Director /s/

Subject:       Mission Comments on the Audit of USAID/Ethiopia’s PEPFAR-
               Funded Activities and Commodities for the Prevention of Mother-to-Child
               Transmission of HIV

This memorandum contains USAID/Ethiopia’s response to the subject audit report transmitted
on May 8, 2009. We greatly appreciate the consummate professionalism of the audit team and
the thoughtful assessment and understanding of the complexities of addressing the Prevention of
Mother-to-Child Transmission (PMTCT) of HIV in Ethiopia.

We find it necessary to clarify one point concerning the USG’s goal to “improve the survival rate
for mothers and children and maximize the number of AIDS-free children”. The audit report
states twice that this goal has not been met (pg. 1, 4). Over the last 15 years, both maternal and
child mortality rates have steadily decreased in Ethiopia. Infant mortality declined by 19 percent
and under-5 mortality by 25 percent (2005 Demographic and Health Survey. This is undoubtedly
due in part to USAID’s efforts in both maternal and child health as well as in PMTCT.
Additionally, USAID’s PMTCT program provided 758 newborns of HIV-positive mothers with
Neviripine in FY2008, thus increasing the number of AIDS-free babies. USAID/Ethiopia would
challenge the statement that the goal has not been met. Improving maternal and child mortality
will continue to be an on-going effort but positive achievements in these areas have been
realized.

Recommendation No. 1: We recommend that USAID/Ethiopia develop a plan to assess
data quality, which will include key HIV/AIDS care and treatment indicators that address
indicators for the prevention of mother-to-child transmission.

USAID/Ethiopia fully supports this recommendation and has already taken steps to ensure
regular data quality assessments (DQA) are conducted. Recently, the Mission filled the position
of Quality Assurance Specialist. This position will support the PEPFAR team in conducting
DQAs; reviewing quarterly, semi-annual and annual partner data; and addressing any reporting
issues. The Strategic Information Advisor has begun preparing a new DQA schedule and plan to


                                                                                       25
                                                                             APPENDIX II


ensure the validation of HIV/AIDS data, including PMTCT data. USAID plans to conduct DQA
training in June 2009 for the PEPFAR team in order to disseminate the plan and better orient
staff on how to routinely administer DQAs. USAID also has scheduled a DQA visit to
IntraHealth for June 2009, just before the project closes out in September 2009. Most of
IntraHealth’s currently supported sites will continue to receive PEPFAR technical assistance
through the HIV/AIDS Care and Support Program (HSCP).

We would like to clarify two points that are made by the Audit report under this section. On page
13, in the middle paragraph, reference is made to “one-third of health centers were not reporting
regularly”. This incidence occurred during the fourth quarter reporting period in FY08 and
IntraHealth intervened by visiting the delinquent health centers to collect the missing data. It
would not be accurate to indicate that throughout the year one-third of health centers did not
report. Furthermore, in the next sentence the report notes that a mission staff said that the
“mission underreports data when data quality is in question.” This idea is repeated again at the
top of page 15. USAID/Ethiopia does not manipulate data or “attempt” to reduce numbers in
order to address concerns about quality. Despite USAID and our implementing partners’ best
efforts to collect data, inevitably all health centers do not report on time, and therefore one can
say there is often an underreporting of PMTCT results. We hope that systematic data evaluation
can determine the magnitude of the data reporting failure and guide site-specific improvements
in data management. Solutions are currently being developed and tested to improve data quality.

We believe the necessary actions have been initiated to resolve this recommendation and will
request closure once the DQA plan and training are completed.

Recommendation No. 2: We recommend that USAID/Ethiopia develop a plan to continue
in its efforts to work with the Office of Global AIDS Coordinator to use PEFPAR funds to
help implement the Government of Ethiopia’s Health Management Information System for
health centers and health posts.

USAID/Ethiopia has long recognized the need for improved Health Management Information
Systems (HMIS) in Ethiopia and we believe that USG PEPFAR does have an existing plan in
place to help support HMIS.

In 2006, the Health, Population, Nutrition (HPN) Donor group, including the USG, supported JSI
to design and pilot test a Health Management Information System. In 2007, the Ministry of
Health (MOH) evaluated the HMIS system and agreed to have Tulane University implement the
system with PEPFAR funding. However, there was limited ability to scale up HMIS due to
financial constraints at the Ministry of Health – at an estimated price of over $100,000,000.
Donors are also unable to adequately fill the resource gap. During USG planning sessions,
PEPFAR Ethiopia identified activities that the USG could take to provide site level HMIS
support to health facilities and administrative offices throughout the country.

As a result, USG support for HMIS is currently limited to technical assistance and training.
USAID primarily supports the implementation of the national HMIS at health center-level
through HCSP, which trained and deployed 260 data entry clerks at health centers throughout




                                                                                        26
                                                                             APPENDIX II


Ethiopia. The program also reprinted and distributed the national HMIS tools to ensure that
health centers have the proper registries to collect service statistics.

USAID, in collaboration with other donor agencies like UNAIDS, plans to design a national
Community-Based HMIS (CBHMIS). This system will provide indicative information regarding
quality and completeness of services being provided at the community and health post levels and
facilitate the reporting of consistent and reliable program performance data to higher levels. This
system will include the monitoring of community-based PMTCT activities, including the number
of referrals to antenatal care (ANC) and PMTCT services made by Health Extension Workers.
USAID/Ethiopia submitted this plan to OGAC in our April 2009 reprogramming and received
approval to implement the CBHMIS.

We believe the necessary actions have been taken within our ability to address this
recommendation and request that IG/A/PA close Recommendation No. 2 accordingly.

Recommendation No. 3: We recommend that USAID/Ethiopia develop a performance
management plan that includes its activities for the prevention of mother-to-child
transmission of HIV.

USAID/Ethiopia is in full agreement that the existing Performance Management Plan (PMP)
needs to be updated. The audit contends that the last PMP for PEPFAR activities was approved
on September 2004. However, the most recent PMP for Strategic Objective 14: Human Capacity
and Social Resiliency Increased was approved on June 30, 2005. This document includes
HIV/AIDS as well as Health, Nutrition and Education indicators.

In response to this finding USAID/Ethiopia formed an internal working group with technical and
monitoring and evaluation (M&E) staff from the HAPN Office and Program Office to update the
existing PMP. The Mission also engaged the USAID/East Africa Monitoring and Evaluation
expert to help the HAPN team put together an updated Performance Monitoring Plan. Once the
PMP is revised and approved, USAID/Ethiopia will request closure of this recommendation.

Recommendation No. 4: We recommend that USAID/Ethiopia, in collaboration with its
commodity logistics partners, develop and implement a detailed interim action plan to
obtain accurate data from health centers and hospitals to improve the supply and timely
distribution of commodities, assuming that funding is available.

USAID/Ethiopia supports the above recommendation and will work with our commodity
logistics partners to develop a detailed action plan to obtain better data from health centers.
USAID will work through the USG interagency Technical Working Group (TWG) system and
our implementing partners to ensure joint collaboration and input on the plan which is expected
to be finalized by the end of August 2009.

We will request closure for this recommendation once the plan has been finalized and
implementation is underway.




                                                                                        27
                                                                          APPENDIX II


Recommendation No. 5: We recommend that USAID/Ethiopia, in collaboration with the
Ethiopian Ministry of Health and other implementing partners, develop and implement a
plan to provide periodic or refresher training on inventory management at storage facilities
for staff responsible for receiving and disbursing commodities. This should include
information on the importance of properly completing stock cards to reflect the status of
commodities on hand.

USAID/Ethiopia fully supports the above recommendation. USAID’s logistics partners in
collaboration with the MOH developed a plan and began conducting on-site and on-job refresher
trainings on inventory management. They are in the process of incorporating this training into
the existing training for Pharmacists. There will be a joint review of the updated training and
increased joint supportive supervision to health facilities.

We kindly request that IG/A/PA close Recommendation No. 5.




                                                                                     28
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202–712–1150
            Fax: 202–216–3047
            www.usaid.gov/oig
